=
\

C@OCKLE

2311 Douglas Street L ega l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-787

PRESERVE RESPONSIBLE SHORELINE
MANAGEMENT, ALICE TAWRESEY, ROBERT DAY,
BAINBRIDGE SHORELINE HOMEOWNERS, DICK
HAUGAN, LINDA YOUNG, JOHN ROSLING,
BAINBRIDGE DEFENSE FUND, POINT MONROE
LAGOON HOME OWNERS ASSOCIATION, INC., and
KITSAP COUNTY ASSOCIATION OF REALTORS,
Petitioners,

Ve
CITY OF BAINBRIDGE ISLAND, WASHINGTON
STATE DEPARTMENT OF ECOLOGY,
ENVIRONMENTAL LAND USE HEARING OFFICE,
and GROWTH MANAGEMENT HEARINGS
BOARD CENTRAL PUGET SOUND REGION,
Respondents.

AFFIDAVIT OF SERVICE

\

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of January, 2021, send out
from Omaha, NE 6 package(s) containing * copies of the BRIEF OF AMICI CURIAE GOLDWATER INSTITUTE AND
CATO INSTITUTE IN SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
ILYA SHAPIRO TIMOTHY SANDEFUR*
TREVOR BURRUS SCHARF-NORTON CENTER
THOMAS A. BERRY FOR CONSTITUTIONAL
CATO INSTITUTE LITIGATION AT THE
1000 Mass. Ave.. NW GOLDWATER INSTITUTE
Washington, DC 20001 500 E. Coronado Rd.
(202) 842-0200 Phoenix, AZ 85004
ishapiro@cato.org (602) 462-5000
litigation@goldwaterinstitute.org,
*Counsel of Record

Counsel for Amici Curiae

Subscribed and sworn to before me this 8th day of January, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska &v Chk
; RENEE J. GOSS ( deed rea~ 4

My Comm. Exp. September 5, 2028

 

 

Notary Public Affiant 40453
Glenn Evans Roper

Pacific Legal Foundation

1745 Shea Center Drive, Suite 400
Highlands Ranch, CO 80129

(916) 419-7111
GERoper@pacificlegal.org

* 3 copies

Attorneys for Preserve Responsible Shoreline Management, et al.

Greg A. Rubstello

James Edward Haney

Ogden Murphy Wallace, PLLC
901 Fifth Avenue, Suite 3500
Seattle, WA 98164

(206) 447-7000
grubstello@omwlaw.com
jhaney@omwlaw.com

* 3 copies

Attorneys for City of Bainbridge Island

Peter Benjamin Gonick
Attorney General of Washington
1125 Washington St SE

PO Box 40100

Olympia, WA 98504

(360) 753-6245
peterg@atg.wa.gov

* 3 copies

Phyllis J. Barney
Assistant Attorney General
Ecology Division

Dionne Padilla-Huddleston
Assistant Attorney General Licensing & Administrative Law
PO Box 40117

Olympia, WA 98504

(360) 586-6770
phyllisb@atg.wa.gov
dionnep@atg.wa.gov

* 3 copies

Attorneys for Washington State Dep’t of Ecology
Lisa M. Petersen

Assistant Attorney General
Licensing & Administrative Law
800 Fifth Avenue, Suite 2000
Seattle WA 98104

(360) 753-6200
lisa.petersen@atg.wa.gov

* 3 copies

Attorney for Growth Board, ELUHO

Lawrence S. Ebner

Atlantic Legal Foundation

1701 Pennsylvania Ave NW, Suite 200
Washington, DC 20006

(202) 729-6337
lawrence.ebner@atlanticlegal.org

* 1 copy

Attorney for Amicus Atlantic Legal Foundation
